APPENDIX

APPENDIX
Opinion of the Eleventh Circuit Court of Appeals,
United States v. Dwyne Deruise,
816 F. App’x 427 (August 14, 2020)................................................................ A-1

A-1

United States v. Deruise, 816 Fed.Appx. 427 (2020)

816 Fed.Appx. 427 (Mem)
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial
decisions issued on or after Jan. 1, 2007.
See also U.S. Ct. of App. 11th Cir. Rule 36-2.
United States Court of Appeals, Eleventh Circuit.
UNITED STATES of America, Plaintiff-Appellee,
v.
Dwyne Byron DERUISE, a.k.a.
Duke, Defendant-Appellant.
No.
19
12707
|
Non-Argument Calendar
|
(August 14, 2020)
Attorneys and Law Firms
Phillip Drew DiRosa, U.S. Attorney's Office, Fort
Lauderdale, FL, Jonathan Colan, Stephen Schlessinger,
Emily M. Smachetti, U.S. Attorney Service - Southern
District of Florida, U.S. Attorney Service - SFL, Miami, FL,
for Plaintiff-Appellee
Peter Vincent Birch, Michael Caruso, Federal Public
Defender, Federal Public Defender's Office, West Palm
Beach, FL, for Defendant-Appellant
Appeal from the United States District Court for the Southern
District of Florida, D.C. Docket No. 9:07-cr-80041-KAM-1
Before JILL PRYOR, GRANT and LUCK, Circuit Judges.
Opinion
PER CURIAM:
Dwyne Deruise appeals the district court's determination that
it had no authority under § 404 of the First Step Act of 2018,
Pub. L. 115-391, 132 Stat. 5194 (the “First Step Act”) to
conduct a plenary sentencing hearing to consider whether
Deruise still qualified as a career offender when granting
him a reduction in his sentence under the First Step Act.

Deruise argues that the First Step Act authorized district
courts to conduct a full resentencing because nothing in the
act limits what the court may consider in imposing a reduced
sentence. After careful consideration, we affirm the district
court's determination.
In 2007, a grand jury indicted Deruise on three counts of
distributing cocaine and crack cocaine, in violation of

21

U.S.C. § 841(a)(1),
841(b)(1)(A), (B), (C) (Counts 1-3);
two counts of manufacturing and possessing with intent to
distribute at least 50 grams of crack cocaine, in violation of
21 U.S.C. § 841(a)(1),
(b)(1)(A), and 18 U.S.C. § 2
(Counts 4-5); and one count of carrying a firearm during and
in relation to a drug trafficking crime, in violation of
18
U.S.C. § 924(c)(1)(A)(i) (Count 6). Deruise pled guilty to
Counts 5 and 6.
In calculating Deruise's guideline range using the 2006
Sentencing Guidelines, the Presentence Investigation Report
(“PSR”) calculated Deruise's total offense level as *428 34
and his criminal history category as VI. With a total offense
level of 34 and a criminal history category of VI, the guideline
range was 262 to 327 months’ imprisonment. Because
Deruise had two prior felony convictions for battery on a
law enforcement officer—predicate offenses that qualified as
“crimes of violence”—he was eligible for the career-offender
enhancement under § 4B1.1, which increased the guideline
range to 322 to 387 months’ imprisonment. Both Count 5 and
6 carried statutory minimum terms of imprisonment, 10 years
for Count 5 and five years to run consecutively for Count 6.
At Deruise's sentencing, the district court adopted the findings
of fact and guideline calculations in the PSR. The district
court sentenced him to 204 months’ imprisonment on Count
5, and a consecutive term of 60 months’ imprisonment on
Count 6, for a total term of 264 months’ imprisonment, which
represented a 58-month downward variance from the low
end of the guideline range. The district court also sentenced
him to five years’ supervised release on each count, to run
concurrently.
In 2019, Deruise filed a motion for reduction of sentence
under the First Step Act, arguing that he was eligible for
a sentence reduction because his drug conviction in Count
5 was a covered offense. In seeking a reduction of his
sentence on Count 5, Deruise argued that the district court
should conduct a full resentencing hearing, apply the law and

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Deruise, 816 Fed.Appx. 427 (2020)

guidelines in effect now, and, in light of Johnson v. United
States, 559 U.S. 133, 130 S.Ct. 1265, 176 L.Ed.2d 1 (2010),
resentence him as if he were not a career offender.
The district court granted Deruise's motion for a reduction
of his sentence under the First Step Act and, considering all
of the facts of the case and the § 3353(a) factors, reduced
his sentence on Count 5 to 168 months’ imprisonment, to be
followed by a consecutive 60-month sentence on Count 6, for
a total sentence of 228 months’ imprisonment.
After the district court's order granting the motion, Deruise
filed an unopposed motion asking the district court to clarify
whether in granting his motion to reduce his sentence the
court continued to classify Deruise as a career offender. In
response, the district court issued an order stating that a
motion to reduce sentence under the First Step Act does not
authorize a full resentencing or a sentencing de novo, and,
therefore, in granting Deruise's motion to reduce his sentence,
the court continued to treat him as a career offender. This
appeal followed.
We review for abuse of discretion a district court's ruling on
an eligible movant's request for a reduced sentence under the
First Step Act. United States v. Jones, 962 F.3d 1290, 1296
(11th Cir. 2020). Where the request poses a legal question,
however, our review is de novo. United States v. Pringle, 350
F.3d 1172, 1178-79 (11th Cir. 2003). We review de novo the
district court's statutory interpretation, a legal issue. United
States v. Segarra, 582 F.3d 1269, 1271 (11th Cir. 2009).
On appeal, Deruise argues that the district court erred in
concluding that it had no authority under the First Step Act
to conduct a de novo resentencing and therefore could not
consider whether Deruise still qualified as a career offender.
Deruise argues that the First Step Act authorized district
courts to conduct a full resentencing because nothing in the
act limits what the court may consider in imposing a reduced
sentence, and where a statute places no restrictions on the
factors a court may consider in imposing a reduced sentence,
the court may consider all relevant § 3553(a) factors. Deruise
further argues that because
Johnson called into question
whether Florida battery on a law enforcement officer, which
was one of his predicate *429 offenses, was a crime of
violence, the court should consider that change in law when
reducing a sentence under the First Step Act.

The Fair Sentencing Act, enacted on August 3, 2010,
amended
21 U.S.C. §§ 841(b)(1) and
960(b) to reduce
the sentencing disparity between offenses involving crack
and powder cocaine. Fair Sentencing Act of 2010, Pub. L.
No. 111-220, 124 Stat. 2372 (the “Fair Sentencing Act”);
see
Dorsey v. United States, 567 U.S. 260, 268-69, 132
S.Ct. 2321, 183 L.Ed.2d 250 (2012) (detailing the history
that led to enactment of the Fair Sentencing Act, including
the Sentencing Commission's criticisms that the disparity
between crack cocaine and powder cocaine offenses was
disproportional and reflected race-based differences). Section
2 of the Fair Sentencing Act changed the quantity of crack
cocaine necessary to trigger a 10-year mandatory minimum
from 50 grams to 280 grams and the quantity necessary
to trigger a five-year mandatory minimum from five grams
to 28 grams. Fair Sentencing Act § 2(a)(1)-(2); see also
21 U.S.C. § 841(b)(1)(A)(iii), (B)(iii). These amendments
were not made retroactive to defendants who were sentenced
before the enactment of the Fair Sentencing Act. United States
v. Berry, 701 F.3d 374, 377 (11th Cir. 2012).
In 2018, Congress enacted the First Step Act, which made
retroactive the Fair Sentencing Act's statutory penalties for
covered offenses. See First Step Act § 404. Under § 404(b)
of the First Step Act, a court “that imposed a sentence for
a covered offense may ... impose a reduced sentence as if
sections 2 and 3 of the Fair Sentencing Act ... were in effect
at the time the covered offense was committed.” Id. § 404(b).
The statute defines “covered offense” as “a violation of a
Federal criminal statute, the statutory penalties for which
were modified by section 2 or 3 of the Fair Sentencing Act ...,
that was committed before August 3, 2010.” Id. § 404(a).
In United States v. Denson, we held that “the First Step Act
does not authorize the district court to conduct a plenary
or de novo resentencing.” 963 F.3d 1080, 1089 (11th Cir.
2020). When ruling on a defendant's First Step Act motion,
a district court is permitted to reduce a defendant's sentence
“only on a ‘covered offense,’ and only ‘as if’ sections 2
and 3 of the Fair Sentencing Act were in effect when he
committed the covered offense.” Id. The district court “is not
free to change the defendant's original guidelines calculations
that are unaffected by sections 2 and 3 [or] to reduce the
defendant's sentence on the covered offense based on changes
in the law beyond those mandated by sections 2 and 3.” Id.
Accordingly, the district court did not err in concluding that it
lacked the authority to conduct a de novo resentencing under

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Deruise, 816 Fed.Appx. 427 (2020)

the First Step Act to consider Deruise's career-offender status
under current law.
AFFIRMED.

All Citations
816 Fed.Appx. 427 (Mem)

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

